                                AR08-002


  Office of Inspector General




   REVIEW OF THE FTC
ADMINISTRATION OF LEAVE



      FINAL REPORT



     September 30, 2008
                                                        UNITED STATES OF AMERICA
                                                 FEDERAL TRADE COMMISSION
                                                          WASHINGTON, D.C. 20580




Office of inspector General




                                                                         September 30, 2008


MEMORANDUM


TO:                    Karen Leydon
                       Director, Human Resources Management Office

FROM:                  John M. Seeba    ~~
                       Inspector Ge~ -       ~
SUBJECT:               Audit Report AR 08-002 Review of the FTC Administration of Leave

                       This report presents the results of our audit of the Federal Trade Commission's
                       (FTC) Administration of Leave. This audit was initiated as part of our annual
                       audit plan. We conducted this audit to determine if the FTC properly administers
                       leave in accordance with Office of Personnel Management (OPM) regulations and
                       FTC internal policies and procedures.

                       We found that overall, the Federal Trade Commission followed the policies and
                       procedures promulgated by OPM for leave management. We did, however, find
                       minor discrepancies in the leave database, which were caused by manual input
                       corrections, but these discrepancies did not affect the outcome of this audit. We also
                       found that 4 of the 12 timekeepers interviewed did not record compensatory overtime
                       work for religious observances in the Federal Personnel and Payroll System (FPPS).
                       Instead, manual records were kept in the local office to control the earning and use of
                       compensatory overtime work for religious observances. In addition, we found that the
                       policy on the eharging of military leave needed to be updated because of changes by
                       OPM.

                      We recommended that the Director, Human Resources Management Office stress
                      to timekeepers the need to record all time in the FPPS, including the earning and
                      use of compensatory overtime work for religious observances; assess the need for
                      training for all new timekeepers; and revise the policy on charging military leave
                      to reflect updated OPM regulations.




FTC/OIG-AR 08-002                                                                                    Page I
            Management agreed with our reeommendations and has initiated corrective
            actions. A copy of management's comments is included in appendix A.

            We appreciate the courtesies and cooperation extended to us by members of your
            staff during the audit. Should you have any questions please contact me at 202-
            326-2020.




FTC/OIG-AR 08-002                                                                  Page 2
    Background

As a benefit to employees, the Federal government provides employees several types of leave,
many of whieh are earned beeause of employment longevity with an ageney. The traditional
types of leave earned beeause of employment with the Federal government are annual and siek
leave. Other types of leave that can be banked or allowed by statute include court leave, military
leave, religious comp time, and Leave Without Pay (LWOP).

Annual Leave. Annual leave is accrued time that permits an employee to be absent from duty
for personal, vacation, or emergency reasons without loss of pay. Annual leave is earned at a
rate of either 4, 6, or 8 hours per pay period, depending on length of service. The table below
describes the annual leave earned by length of service.

             Length of Service                Hours Earned                   Yearly total
                                              per Pay Period

            First 3 Years                           4                           104
            Years 4 through 15                      6'                          160
           115 + Years                              8                           208


Annual leave can be accumulated up to 240 hours in a year and any amounts that exceed 240
hours can only be carried forward to the next leave year if certain strict criteria are met. Senior
management must approve any exeess leave that is carried over.

Sick Leave. Sick Leave is approved absence from work when:

            a.       an employee is incapacitated by physical or mental illness, injury, pregnancy, or
                     childbirth from performing his or her job;
           b.        receives dental, optical, or medical examination or treatment; is exposed to a
                     communicable disease that would endanger the health of coworkers; or
           c.        provides care for a family member similarly incapacitated or receiving medical
                     examination or treatment; and for adoption-related purposes or;
           d.        in connection with the death and/or funeral of a family member.

Military Leave. An employee who meets certain criteria is entitled to time off at full pay for
certain types of active or inactive duty in the National Guard or as a Reserve of the Armed
Forces. Military Leave provides for 15 days per fiscal year for active duty, active duty training,
and inactive duty training. Employees can carryover a maximum of 15 days into the next fiscal
year.




!   10 hours are earned in the last pay period of the leave year to equal the 160 hours total.


FTC/OIG-AR 08-002                                                                                Pagc 3
Compensatory Overtime Work for Religious Observance. Any employee, including members
of the Senior Executive Service, may elect to work additional hours for the purpose of taking
time off without charge to leave when personal religious beliefs require that the employee
abstain from work during certain periods of the workday or workweek.

LWOP. Leave without pay is a temporary non-pay status and absence from duty that, in most
cases, is granted at the employee's request. In most instances, granting LWOP is a matter of
supervisory discretion and may be limited by agency internal policy. Employees, however have
an entitlement to LWOP for (I) Family Medical Leave Act, (2) Military Service, (3) Medical
treatment for veterans, and (4) when an employee is on workers' compensation and receiving
payments from the Department of Labor.

Court Leave. Employees shall be granted court leave when called upon for jury service in any
Federal, state, or local court. When the employee is excused from duty by the court for any
period that would permit work for 4 or more hours, he or she is expected to return to work unless
the amount of travel required would create an undue hardship because of the distance of the court
from the work site. If the employee does not return to work when excused, except for the above
reasons, he or she may use approved annual leave or leave without pay.

Further definitions and details can be found in Chapter 3, section 650 of the FTC Administrative
Manual, "Absence and Leave."

Payroll and Accounting Support Center. The Department of Interior's (DOl) National
Business Center (NBC), through an interagency agreement with the FTC, processes all
accounting and payroll information for the FTC. The NBC, located in Denver, Colorado, is the
central processing site where all the payroll data for the FTC resides. The FTC has real-time
access to the accounting and payroll systems housed at the NBC.

                                         Objectives

The audit objective was to determine whether the FTC properly administers leave in accordance
with OPM and internal policies and procedures.

                                            Scope

We reviewed leave data for fiscal years 2005, 2006, and 2007. We identified the major types of
leave used within the agency. The types ofleave included in the review were annual, sick, leave
without pay, restored annual leave, and compensatory overtime work for religious observance
(religious comp time).

                                       Methodology

The audit identified the various regulations, policies, and procedures prescribed by the Office of
Personnel Management and the FTC's Administrative Manual, Section 650, "Absence and
Leave." Wc reviewed leave amounts camed, charged and carried over to subsequent years as part
of our testing. From this universe, we sampled employee records and traced information to their


FTC/OIG-AR 08-002                                                                         Page 4
employee personnel records. We interviewed a sample of 12 of the 52 timekeepers to determine
the internal practices used to process and record leave usage. In addition, we reviewed the
process for requesting and approving restored annual leave.

Reliability of Computer Based Data. We relied on the data contained in the FPPS. Our tests of
data found that the information was sufficiently reliable for the tests that we conducted.

We conducted this audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable hasis for our findings and
eonclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The audit was conducted during the months of April through August 2008.


  Finding - Leave Administration Processes Generally in Place and Working

Overall, we found that the Federal Trade Commission (FTC) followed the policies and
procedures promulgated by the Office of Personnel Management (OPM) for leave management.
We did however; find minor discrepancies in the leave database which were caused by manual
input corrections. We also found that 4 of 12 the timekeepers interviewed did not record
compensatory overtime work for religious observances in the FPPS. Instead, manual records
were kept in the local office to control the earning and use of religious comp time. In addition,
we found that one policy on the charging of military leave needed to be updated hecause of
changes by OPM.

Discussion

The FTC leave administration was found to be generally in compliance with the policies and
procedures promulgated by the Office of Personnel Management as implemented by the Human
Resources Management Office (HRMO). We found that timekeepers were knowledgeable about
timekeeping policies and procedures. In our sample of 12 of the 52 timekeepers interviewed at
the FTC, they were clearly knowledge about the timekeeping procedures, requirements for
charging leave, and in general for recording leave into the Federal Personnel Payroll System
used to record leave. If timekeepers required further guidance, they were fully aware ofreference
material available to them as well as individuals at FTC or at the DOl's National Business Center
that are knowledgeable about absence and leave policies and procedures.




FTC/OIG-AR 08-002                                                                         Page 5
Compensatory Overtime Work for Religious Observance. The only area that we found
needing improvement was in the recording of compensatory time for religious observance. We
found that 4 of the 12 sampled timekeepers stated that compensatory overtime work for religious
observance was not formally recorded in the FPPS, but rather recorded at the local level on
manual records. This occurred because timekeepers believed that recording the earning and use
of compensatory time for religious observances in a local, manual system was sufficient and that
there were few employees who availed themselves of this type of leave. FTC's Administrative
Manual Chapter 3, Section 650(4)(B) states that timekeepers are responsible for accurate
reporting of absences on time and attendance records. As a result, compensatory time for
religious observance was not recorded in any official records by some timekeepers and therefore
could be susceptible to error, omission or fraud. Timekeepers should record all time worked or
leave used in the official records of the agency.

Training. We also found that most timekeepers have not received any specific trammg for
timekeeping procedures, but instead received on-the-job training from prior timekeepers or co-
workers who perform similar duties. One exception was that timekeepers in the field offices
generally participate in annual meetings where new developments that can affect the timekeeping
area are discussed. During our discussions with the timekeepers, some suggested that it would be
belpful to have a training class for new hires. Although we found that timekeepers were
knowledgeable, we believe a training class could be helpful for new timekeepers.

Manual Update. The FTC's Administrative Manual is the main reference for leave questions for
timekeepers. For system questions, the timekeepers use the DOl's timekeeper manual as a
reference for system input questions. During our audit, we compared the current FTC policies
and procedures with those published by the Office of Personnel Management. We found that
FTC's Chapter 3, Section 650 (17) "Military Leave," Part C, "Non-workdays falling within the
period of absence on military leave are charged against the military leave," was not correct.
OPM's regulations have now changed and should reflect the following:

       "Military leave should be credited to a full-time employee on the basis of an 8-
       hour workday. The minimum charge to leave is 1 hour. An employee may be
       charged military leave only for hours that the employee would otherwise
       have worked and received pay.... Members of the Reserves or and National
       Guard will no longer be charged military leave for weekends and holidays that
       occur within the period of military service."

Recommendations

The OIG recommends that the Director, Human Resources Management Office:

 1.    inform all timekeepers on the need to record all leave and earned compensatory time in
       the FPPS.
 2.    assess the need for a training session for all new timekeepers
 3.    revise the FTC Administrative Manual Chapter 3, section 650, 17 (C) to reflect the
       updated OPM regulations on military leave.




FTC/OIG-AR 08-002                                                                       Page 6
Agency Response

Management fully concurred with the report and its recommendations. The Human Resources
Management Office has initiated corrective action on recommendation one related to
compensatory overtime for religious observances. Management's comments are included in
Appendix A.

OIG Position

We concur with management's assessment of the report.




Abbreviations Used in This Report

DOl                  Department ofInterior
FPPS                 Federal Personnel Payroll System
FTC                  Federal Trade Commission
OIG                  Office ofInspector General
OPM                  Office of Personnel Management
IG                   Inspector General
LWOP                 Leave without Pay




FTC/OIG-AR 08-002                                                                 Page 7
Appendix A - Management Comments




                                                    UNITED STATES OF AMERICA
                                               FEDERAL TRADE COMMISSION
                                                     WASHINGTON, D.C, 20580




          Humnn Resoun:cs Managemcm orne<:


                                               September 26, 2008


          MEMORANDUM

          TO:               John Seeba


          FROM:
                            z;,
                              s ctor General
                                <u..£.., / '
                              en F.
                                                 t/-
                                        LeYdOn~ctor
                            Human Resources Management Office

          SUBJECT:          Response to Draft Report on the Administration of Leave


                  Thank you for the opportunity to review and comment on the draft Report on the
          Administration of Leave. We are pleased that overall you found that the FTC properly
          administers leave in accordance with the U.S. Office of Personnel Management (OPM)
          regulations and OPM and internal policies and procedures. We concur with the three
          recommendations and will take the necessary action to implement. To that end, I have
          already issued a notice to staff this week regarding the accrual, use, and recording of
          compensatory overtime for religious observances.

                 Again. we appreciate the opportunity to conunent on this letter. If you have any
          questions relating to our response, please contact me at extension 3633.




    FTC/OIG-AR 08-002                                                                               Page 8
